I

«
*

I

I

♦

I

J

APPENDIX
i
t

I

j

«

I

{

i

t

I

(
&

App. la
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 19-2158
Charlene F. McDonald, individually and on behalf of a
class of all other persons similarly situated, and on behalf
of the Edward D. Jones & Co. Profit Sharing and 401(k)
Plan; Windle Pompey
Plaintiffs
Valeska Schultz; Melanie Waugh; Rosalind Staley
Plaintiffs-Appellees
v.
Edward D. Jones & Co., L.P.
Defendant-Appellee
The Jones Financial Companies
Defendant
The Edward Jones Investment and Education Committee
Defendant-Appellee
John & Jane Does, 1-25
Defendant
Brett Bayston; Bonnie Caudle; Mark Vivian; Stina
Wishman; Jan-Marie Kain; Linda Banniester; Ann
Echelmeier; Curtis Long; David Gibson; Ken Blanchard;
Jason Jonczak; Julie Rea; Asma Usmani;Glenn Kolod; Juli
Johnson; Jess Dechant; Peggy Robinson; Edward Jones
Profit Sharing and 401(k) Administrative Committee; John
Does, 1-30
Defendants - Appellees

App. 2a
v.
Shiyang Huang
Obj ector-Appellant
Anna Mae Krause; Heath J. Petsche
Objectors
Appeal from United States District Court
for the Eastern District of Missouri - St. Louis
Submitted: January 23, 2020
Filed: January 31, 2020
[Unpublished]
Before SHEPHERD, STRAS, and KOBES, Circuit Judges.
PER CURIAM.
In this Employee Retirement Income Security Act
(ERISA) class action, objector Shiyang Huang appeals the
district court’s1 judgment certifying a settlement class,
approving the settlement agreement, and awarding
attorneys’ fees and case contribution awards. Initially, we
find that plaintiffs had standing to bring the class action.
See Campbell-Ewald Co. v. Gomez. 136 S. Ct. 663, 670-71
(2016) (without accepted settlement agreement, parties
remained adverse); In re SuperValu, Inc., 870 F.3d 763,
768 (8th Cir. 2017) (putative class action can proceed as
long as one named plaintiff has standing); Braden v. WalMart Stores. Inc.. 588 F.3d 585, 592-93 (8th Cir. 2009)

1 The Honorable John A. Ross, United States District Judge for the
Eastern District of Missouri.

«
y

i

App. 3a

»

I

I
i
1

*

I
i

t

t

<
I

*

i

t

(plan participant had standing to pursue ERISA breach of
fiduciary claim on behalf of plan).
We also conclude that the district court did not
abuse its discretion in certifying the class under Federal
Rule of Civil Procedure 23(b)(1)(A), as the action was
brought on behalf of the plan and requested plan-wide
relief, raising the risk of inconsistent adjudications that
would establish incompatible standards of conduct for
defendants if individual actions were brought. See
Rattray v. Woodbury Ctv.. 614 F.3d 831, 835 (8th Cir.
2010) (standard of review); Piazza v. Ebsco Indus.. Inc..
273 F.3d 1341, 1352 (11th Cir. 2001) (because ERISA
breach of fiduciary duty claims were brought on behalf of
plan and relief would benefit plan as whole, individual
actions raised risk of inconsistent adjudications, and Rule
23(b)(1)(A) certification was available). Further, the
named plaintiffs’ case contribution awards did not render
their interests adverse to those of the class, and the court
did not abuse its discretion in granting the awards and
attorneys’ fees. See Caligiuri v. Symantec Corp., 855 F.3d
860, 865, 867-68 (8th Cir. 2017) (standard of review;
$10,000 awards were not unfair to class, and are regularly
granted by courts in this circuit); In re Online DVDRental Antitrust Litig.. 779 F.3d 934, 943, 954 (9th Cir.
2015) (awards compensating representatives for work
done on behalf of class and commensurate with awards in
similar cases did not create impermissible conflict
between class and representatives; no abuse of discretion
in awarding attorneys’ fees where fee motion was filed by
court’s deadline, which was 15 days before deadline for
members to object).

s
■i

f

t

C
i

V

!
6

)

1%

The judgment is affirmed. See 8th Cir. R. 47B.

3

App. 4a
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
)

VALESKA SCHULTZ, et al., )
Plaintiffs,
)
)

v.

) CASE No. 4:16-cv-1346-JAR
)

EDWARD D. JONES
& CO., L.P., et al.
Defendants.

)
)

JUDGMENT APPROVING SETTLEMENT OF
CLASS ACTION
WHEREAS, Valeska Schultz, Melanie Waugh, and
Rosalind Staley (the "Plaintiffs") in the above captionedlawsuit (the "Action") on behalf of themselves and the
Settlement Class, and Defendants Edward D. Jones & Co.,
L.P., The Edward Jones Investment and Education
Committee, The Edward Jones Profit Sharing and 401(k)
Administrative Committee, Brett Bayston; Bonnie Caudle,
Mark Vivian, Stina Wishman, Jan-Marie Kain, Linda
Bannister, Ann Echelmeier, Curtis Long', David Gibson,
Ken Blanchard, Jason Janczak, Julie Rea, Asma Usmani,
Glen Kolod, Juli Johnson, Jess Dechant and Peggy
Robinson (the "Defendants"), have entered into a Class
Action Settlement Agreement dated December 11, 2018,
(the "Settlement Agreement"), that provides for a complete
dismissal with prejudice of all claims asserted in the Action
against Defendants by Settlement Class Members on the
terms and conditions set forth in the Settlement
Agreement, subject to the approval of this Court (the
"Settlement");

App. 5a
WHEREAS, unless otherwise defined in this Judgment,
the capitalized terms herein shall have the same meaning
as they have in the Settlement Agreement;
WHEREAS, by Order dated December 13, 2018 (Doc.
97) (the "Preliminary Approval Order"), this Court (1)
conditionally certified the Settlement Class and appointed
Class Counsel; (2) preliminarily approved the Settlement;
(3) directed notice to Settlement Class Members and
approved the plan and form of Notice; (4) appointed a
Settlement Administrator; (5) scheduled a Fairness
Hearing; and (6) scheduled a hearing on Plaintiffs'
Counsels' motion for fees and costs and the payment of
Case Contribution Awards;
WHEREAS, due and adequate notice has been given to
the Settlement Class;
WHEREAS, the Court conducted a hearing on April 18,
2019 (the "Fairness Hearing") to consider, among other
things, (a) whether the proposed Settlement on the terms
and conditions provided for in the Settlement Agreement is
fair, reasonable, adequate and in the best interests of the
Settlement Class and should be approved by the Court; (b)
whether a Judgment substantially in the form attached as
Exhibit A to the Agreement should be entered dismissing
with prejudice all claims asserted in the Action against
Defendants with respect to Settlement Class Members; (c)
whether the proposed Plan of Allocation for the proceeds of
the Settlement is fair and reasonable and should be
approved; (d) whether the motion by Plaintiffs' Counsel for
an award of attorneys' fees and reimbursement of litigation
expenses and for Case Contribution Awards should be
approved; and
WHEREAS, the Court having reviewed and considered
the Settlement Agreement, all papers filed and proceedings
held herein in connection with the Settlement, including all
objections filed, all oral and written comments received

App. 6a
regarding the proposed Settlement, and the record in the
Action, and good cause appearing therefor;

NOW, THEREFORE, IT IS HEREBY ORDERED,
ADJUDGED AND DECREED:
1. Jurisdiction: The Court has jurisdiction over the
subject matter of the Action, and all matters relating to the
Settlement, as well as personal jurisdiction over all of the
Parties and each of the Settlement Class Members.
2. Incorporation of Settlement Documents: This
Judgment incorporates and makes a part hereof: (a) the
Settlement Agreement filed with the Court on December
11, 2018, including the Plan of Allocation submitted
therewith, and (b) the Notice submitted approved by the
Court on December 13, 2018.
3. Objections: The Court has duly considered the
objections to the Settlement that were filed and that were
raised during the Fairness Hearing, namely, the objections
filed by Heath Petsche (ECF 98), Anna Krause (ECF 103),
and Shiyang Huang (ECF 104). For the reasons stated on
the record and in the parties' respective briefing, the Court
hereby overrules the objections.
4. Class Certification for Settlement Purposes: The
Court hereby affirms its determinations certifying, for the
purposes of the Settlement only, the Action as a class action
pursuant to Rule 23(b)(1) of the Federal Rules of Civil
Procedure with the Settlement Class consisting of all
Current and Former Participants in the Plan who
maintained a balance of any amount in the Plan at any
point during the period from August 19, 2010 to the date of
entry of. the Preliminary Approval Order.
5. Adequacy of Representation: Pursuant to Rule 23
of the Federal Rules of Civil Procedure, and for the
purposes of Settlement only, the Court hereby affirms its
determinations in the Preliminary Approval Order
certifying Plaintiffs as Class Representatives for the

t

w.

App. 7a
Settlement Class and appointing Plaintiffs' Counsel as
Class Counsel for the Settlement Class both in terms of
litigating the claims of the Settlement Class and for
purposes of entering into and implementing the Settlement
and finding that the Settlement has satisfied the
requirements of Federal Rules of Civil Procedure 23(a)(4)
and 23(g).
6. Notice: The Court finds that the dissemination of the
Notice: (i) was implemented in accordance with the
Preliminary Approval Order; (ii) constituted the best notice
reasonably practicable under the circumstances;.(iii)
constituted notice that was reasonably calculated, under
the circumstances, to apprise all Settlement Class Members
of the pendency of the Action, of the effect of the Settlement
(including the releases provided for therein), of Plaintiffs'
Counsels' motion for an award of attorneys' fees and
reimbursement of litigation expenses and case contribution
awards, of their right to object to the Settlement, the Plan
of Allocation and Plaintiffs' Counsels' motion for attorneys'
fee and reimbursement of litigation expenses, and of their
right to appear at the Fairness Hearing; (iv) constituted
due, adequate, and sufficient notice to all persons or
entities entitled to receive notice of the proposed
Settlement; and (v) satisfied the requirements of Rule 23 of
the Federal Rules of Civil Procedure, the United States
Constitution including the Due Process Clause, and all
other applicable law and rules.
7. Final Settlement Approval and Dismissal of
Claims: Pursuant to, and in accordance with, Rule 23 of
the Federal Rules of Civil Procedure, this Court hereby
fully and finally approves the Settlement set forth in the
Agreement in all respects including, without limitation, the
amount of the Settlement; the releases provided for therein,
including the release of the Plaintiffs' Claims as against the
Defendants and the Defendants' Claims as against the

•** ^

App. 8a
Plaintiffs; and other dismissal with prejudice of the claims
asserted in the Action against Defendants by Settlement
Class Members, and finds that the Settlement is, in all
respects, fair, reasonable and adequate, and is in the best
interests of Plaintiffs and the Settlement Class. The Parties
are directed to implement, perform and consummate the
Settlement in accordance with the terms and provisions of
the Agreement.
8. As of the Effective Date, pursuant to Fed. R. Civ. P.
54(b), all of the claims asserted in this Action against
Defendants by Plaintiffs and Settlement Class Members
are hereby dismissed with prejudice. The Parties shall bear
their own costs and expenses, except as otherwise expressly
provided in the Settlement Agreement.
9. Binding Effect: The terms of the Settlement
Agreement and of this Judgment shall be forever binding
on Defendants, Plaintiffs and all Settlement Class
Members, as well as their respective heirs, executors,
administrators, predecessors, successors and assigns.
10. Releases: The releases set forth in the Settlement
Agreement, including but not limited to Paragraphs 5.1 and
5.3 of the Settlement Agreement (the "Releases"), together
with the definitions contained in Paragraphs 1.11, 1.30 and
1.40 of the Settlement Agreement relating thereto, are
expressly incorporated herein in all respects. The Releases
are effective as of the Effective Date. Accordingly, the Court
orders that, as of the Effective Date:
a. The Plaintiffs and each of the other Settlement
Class Members, on behalf of themselves and their
respective officers, directors, heirs, executors,
administrators, predecessors, successors, affiliates
and assigns, shall be deemed to have, and by
operation of law and 'of the judgment shall have,
fully, finally and forever compromised, settled,
released, resolved, relinquished, waived, discharged,

App. 9a

«

I

and dismissed with prejudice each and every Claim
against the Defendants and the other Defendant
Released Parties and shall forever be enjoined from
prosecuting any or all of the Plaintiffs' Claims
against any of the Defendant Released Parties as
more fully set forth in the Settlement Agreement;
and
b. Each of the Defendants, on behalf of themselves
and their respective officers, directors, heirs,
executors, administrators, predecessors, successors,
affiliates and assigns, shall be deemed to have, and
by operation of law and of the judgment shall have,
fully, finally and forever compromised, settled,
released, resolved, relinquished, waived, discharged
and dismissed with prejudice each and every
Defendants' Claim against Plaintiffs and shall
forever be • enjoined from prosecuting any or all of the
Defendants' Claims against the Plaintiffs, as more
fully set forth in the Settlement Agreement.
11. Bar Order: Upon the Effective Date, all persons and
entities shall be permanently enjoined, barred and
restrained from bringing, commencing, prosecuting or.
asserting any and all claims, actions, suits, causes of
actions, arbitrations, or demands in any forum against any
of the Parties for recovery, contribution, indemnification or
otherwise for any damages allegedly arising from any of the
Released Claims as defined in the Settlement Agreement.
12. Rule 11 Findings: The Court finds and concludes
that the Parties and their respective counsel have complied
in all respects with the requirements of Rule 11 of the
Federal Rules of Civil Procedure in connection with the
commencement, maintenance, prosecution, defense and
settlement of the claims asserted in the Action against
Defendants by Settlement Class Members.

App. 10a
13. No Admissions: This Judgment, the Preliminary
Approval Order, the Settlement Agreement (whether or not
consummated), including the exhibits thereto and the Plan
of Allocation contained therein (or any other plan of
allocation that may be approved by the Court), materials
submitted in support of the Plan of Allocation, and the
negotiations that led to the agreement in principle reached
on December 11, 2018, the negotiation of the Settlement
Agreement and its exhibits, and any papers submitted in
support of approval of the Settlement, and any proceedings
taken pursuant to or in connection with the Settlement
Agreement or approval of the Settlement (including any
arguments proffered in connection therewith): (a) shall not
be offered against any of the Defendants as evidence of, or
construed as, or deemed to be evidence of any presumption,
concession, or admission by any of the Defendants with
respect to the truth of any fact alleged by Plaintiffs or the
validity of any claim that was, could have been, or may be
asserted or the deficiency of any defense that has been,
could have been, or may be asserted in this Action or in any
litigation, or of any liability, negligence, fault, or other
wrongdoing of any kind by any of the Defendants; (b) shall
not be offered against Plaintiffs as evidence of a
presumption, concession or admission with respect to any
liability, negligence, fault or wrongdoing of any kind, or in
any way referred to for any other reason as against
Plaintiffs in any civil, criminal or administrative action or
proceeding, other than such proceedings as may be
necessary to effectuate the provisions of the Settlement
Agreement; provided, however, that if the Settlement
Agreement is approved by the Court, the Parties and their
respective counsel may refer to it to effectuate the
protections from liability granted thereunder or otherwise
to enforce the terms of the Settlement; (c) shall not be
construed against any of the Parties as an admission,

r **

I

App. 11a
concession, or presumption that the Settlement Amount
represents the amount which could be or would have been
recovered by the Settlement Class after trial with respect to
their claims in the Action; (d) shall not be construed against
the Plaintiffs that any of the claims asserted or to be
asserted in the Action are without merit, that any of the
Defendants have or had meritorious defenses, or that
damages recoverable by the Settlement Class would not
have exceeded the Settlement Amount.
14. Retention of Jurisdiction: Without affecting the
finality of this Judgment in any way, this Court retains
continuing and exclusive jurisdiction over: (a) the Parties
for purposes of the administration, interpretation,
implementation and enforcement of the Settlement; (b) the
disposition of the Settlement Fund; (c) any motion for an
award of attorneys' fees and litigation expenses by
Plaintiffs' Counsel in the Action that will be paid from the
Settlement Fund; (d) any motion to approve the Plan of
Allocation; (e) the Settlement Class Members for all
matters relating to the Action; (f) the enforcement of the
Bar Order against any person; and (g) the interpretation,
implementation and enforcement of this Judgment.
15. A separate order shall be entered on the motion of
Plaintiffs' Counsel for an award of attorneys' fees and
reimbursement
of litigation
expenses
and
Case
Contribution Fees. Such order shall in no way affect or
delay the finality of this Judgment and shall not affect or
delay the Effective Date of the Settlement.
16. Modification of Settlement Agreement. Without
further approval from the Court, Plaintiffs and Defendants
are hereby authorized to agree to and adopt such
amendments or modifications of the Settlement Agreement
or any exhibits attached thereto to effectuate this
Settlement that: (i) are not materially inconsistent with
this Judgment; and (ii) do not materially limit the rights of

App. 12a
Settlement Class Members in connection with the
Settlement. Without further order of the Court, Plaintiffs
and Defendants may agree to reasonable extensions of time
to carry out any provisions of the Settlement.
17. Termination: If the Effective Date does not occur or
the Settlement is terminated as provided in the Settlement
Agreement, then this Judgment (and any orders of the
Court relating to the Settlement) shall be vacated, rendered
null and void and be of no further force or effect, except as
otherwise provided by the Settlement Agreement. 18. Entry
of Final Judgment: There is no just reason to delay entry of
this Judgment as a final judgment with respect to the
claims asserted in the Action against Defendants by
Settlement Class Members. Accordingly, the Clerk of the
Court is expressly directed to immediately enter this final
judgment pursuant to Fed. R. Civ. P. 54(b) as against
Defendants.
SO ORDERED.

Dated this 22nd day of April, 2019.
/s/ John A. Ross
JOHN A. ROSS
UNITED STATES DISTRICT JUDGE

r- *

App. 13a
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
)

VALESKA SCHULTZ, et al., )
Plaintiffs,
)
)

v.

) CASE No. 4:16-cv-1346-JAR
)

EDWARD D. JONES
& CO., L.P., et al.
Defendants.

)
)
)

ORDER ON PLAINTIFFS' MOTION FOR
ATTORNEYS' FEES, REIMBURSEMENT OF
EXPENSES AND CASE CONTRIBUTION AWARDS
The Court having received and considered Plaintiffs'
Motion for Attorneys' Fees, Reimbursement of Expenses
and Case Contribution Awards (the "Fee Motion") (Doc.
101) in the above-captioned action (the "Action") and the
supporting papers, including the Class Action Settlement
Agreement dated December 11, 2018 (the "Settlement
Agreement"), the declarations of counsel and the supporting
Memorandum of Law, Plaintiffs' Response to Objections,
and having held a hearing on the Fee Motion on April 18,
2019, and finding good cause for granting the Fee Motion,
makes the following findings of fact and conclusions of law:
1. The Settlement Agreement confers substantial
benefits on the Settlement Class.
2. The benefits that the Settlement Agreement confers
on the Settlement Class is immediate and readily
quantifiable (upon Judgment in the Action becoming Final
(as defined in the Settlement Agreement).

£

'*”

App. 14a
3. Plaintiffs' Counsel, Bailey Glasser LLP, Izard, Kindall
& Raabe, LLP and Kessler Topaz Meltzer & Check LLP
(collectively, "Class Counsel"), vigorously and effectively
pursued the claims in this complex case on behalf of the
Plaintiffs and the Class.
4. The Settlement Agreement was obtained as a direct
result of Class Counsel's advocacy.
5. The Settlement Agreement was reached following
extensive, good-faith negotiations between Class Counsel
and Counsel for Defendants and was not the product of
collusion.
6. Members of the Settlement Class were advised in the
Class Notice approved by the Court that Class Counsel
intended to seek attorneys' fees not to exceed one-third of
the Settlement Fund, or $1,058,333, and to be reimbursed
for the expenses they incurred in prosecuting the Action
from the Settlement Fund.
7. Counsel who recover a common benefit for persons
other than himself or his client is entitled to a reasonable
attorneys' fees from the Settlement Fund as a whole. See,
e.g., Boeing Co. v. Van Gernert, 444 U.S. 472, 478 (1980)
and Caligiuri v. Symantec Corp., 855 F.3d 860, 865 (8th
Cir. 2017).
8. Class Counsel's requested fee is 1/3 of the amount of
the Settlement. This amount is reasonable considering the
benefits conferred through the settlement, the litigation
risk that Class Counsel bore by litigating the case on a
wholly contingent basis, the difficulty and novelty of the
legal issues in the case, the skill and experience of the
lawyers in the case, the time and labor Class Counsel
devoted to the litigation, and the reaction of the Class.
Moreover, a lodestar cross-check indicates that the
requested fee provides a lodestar multiple of 1.6x, which is
at or below multiples that have often been approved in
other cases. The Court finds the rates and hours used to

vr

‘C-

* *

App. 15a
determine the lodestar multiplier to be reasonable given
the relevant market and the complexities of ERISA class
litigation such as this.
9. The Court has duly considered the objections to the
Settlement that were filed and raised during the Fairness
Hearing, namely the objections filed by Heath Petsche
(ECF 98), Anna Krause (ECF 103), and Shiyang Huang
(ECF 104), and for the reasons stated on the record and in
the parties' respective briefing, • overrules those objections.
10. Class Counsel's requested fee is consistent with
other fee awards in the Eighth Circuit. See In re US.
Bancorp Litig., 291 F.3d 1035, 1038 (8th Cir. 2002)
(affirming award of attorneys' fees equal to one-third of
common fund); see also Krueger v. Ameriprise Financial,
No. 11-2781, 2015 WL 4246879, at *4 (D. Minn. July 13,
2015) (awarding class counsel one third of the monetary
relief recovered in ERISA case).
11. Class Counsel's request to be reimbursed for the
$19,018.50 in expenses they incurred in prosecuting this
case is also reasonable and the Court finds that these
expenses would normally be charged to a fee-paying client.
Krueger, 2015 WL 4246879 at *3 (reimbursing class counsel
for "expert Witness costs, mediation costs, computerized
research, court records, travel expenses, and copy,
telephone, and facsimile expenses.").
12. Plaintiffs, Valeska Schultz, Melanie Waugh and
Rosalind Staley, brought a • representative lawsuit on
behalf of the Edward D. Jones & Co. Profit Sharing and
401(k) Plan (the "Plan"). •. In doing so, Plaintiffs expended
substantial amounts of time and effort to protect the
interests of the Class and the Settlement is a direct result
of Plaintiffs' commitment. In addition, the Plaintiffs risked
alienation by peer and friends and reputational risk in
having brought an action against their prior employer. 13.
Accordingly, the Court awards Class Counsel fees in the

o.
f

ff a

4 »'

App. 16a
amount of $1,058,333, and reimbursement of $19,018.50 in
expenses. Each of the Plaintiffs is awarded a Case
Contribution Award in the amount of $10,000. All awards
to Class Counsel and Plaintiffs shall be paid from the
Settlement Fund.
SO ORDERED.

Dated this 22nd day of April, 2019.
/s/ John A. Ross
JOHN A. ROSS
UNITED STATES DISTRICT JUDGE

I

I

App. 17a
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No. 19-2158
Charlene F. McDonald, individually and on behalf of a
class of all other persons similarly situated, and on behalf
of the Edward D. Jones & Co. Profit Sharing and 401(k)
Plan and Windle Pompey
Valeska Schultz, et. al.
Appellees
v.
Edward D. Jones & Co., L.P.
Appellee
The Jones Financial Companies
The Edward Jones Investment and Education Committee
Appellee
John & Jane Does, 1-25
Brett Bayston, et al.
Appellees
v.
Shiyang Huang
Appellant
Anna Mae Krause; Heath J. Petsche
Appeal from U.S. District Court for the Eastern District
of Missouri - St. Louis
(4:16-cv-01346-JAR)

V

App. 18a

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.

March 03, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

